                                                    NA TJONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A11120086                                                                            Page 1 of 1




                 Our office received an allegation that the proposal 1 of a Pf contained plagiarized material.
         The PI utilized material from an awarded proposal 3 in which the PI served as the co-PI and then PI
         before leaving the institution. 4 Our review of the matter determined that the allegation was not
         substantiated as a similar program was proposed by the PI at the PI's current institution with
         scientifically distinct research projects. Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (I l/02)
